--




M E M O R A N D U M


                                                                  September 25,2007
To:           Andrew Donohue
From:          Nelson Egbert
Re:            Investment Company Disclosure Initiatives (Audit No. 421)


Attached is our audit report on IM's Investment Company Disclosure Initiatives.
IM's comments on prior versions of the draft report have been incorporated as
appropriate.
We would appreciate receiving any additional comments you have concerning this
audit and the report. I n particular, we would like to know whether you found the
audit useful. We also welcome any suggestions from you concerning how we could
improve future audits.
 The courtesy and cooperation of you and your staff during this audit are appreciated.
Attachment
 cc: Susan Nash
     Brent Fields
     Donna Hawkins
     Jennifer McHugh
     Thomas Smith Jr.
     Diego Ruiz
     Ken Johnson
     Darlene Pryor
     Peter Uhlmann
     Richard Hillman, GAO
           INVESTMENT COMPANY
          DISCLOSURE INITIATIVES
                    EXECUTIVE SUMMARY
 We found that the Office of Disclosure Regulation (ODR) in the Division of
Investment Management OM) has identified goals and milestones for improving
mutual fund disclosure and has made progress toward achieving its goals. ODR has
developed and implemented rules that encourage mutual funds to submit financial
and risk/rturn summary information in an interactive data language (extensible
Business Reporting Language or XBRL). In the near future, ODRplans to finalize a
proposal to further reform m u tual fund disclosure and delivery of infor ma tion to
investors.
We are recommending tha t ODR iden ti& outcome -based performance indica tors for
its disclosure reform initiatives.


 OBJECTIVES, SCOPE AND METHODOLOGY
Our objectives were to determine whether IM has identified its goals for improving
mutual fund disclosure and to assess the extent to which IM is achieving these
goals. During the audit, we interviewed IM and other Commission staff, reviewed
applicable laws and regulations, and analyzed relevant documentation, including
reports on the disclosure initiatives.
We conducted this performance audit between July 2006 and June 2007 in
accordance with generally accepted government auditing standards (GAGAS).
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


                               Background
Reform of mutual fund disclosure is among IM's most important priorities, given the
significance of mutual funds to investors. Through its reforms, IM plans to
streamline the information mutual funds provide to investors, and to improve the
usefulness of this information.
The Office of Disclosure Regulation (ODR) is responsible for implementing IM's
initiative to reform mutual fund disclosure. ODR is a segment of the Office of



Investment Company Disclosure Initiatives (Audit No. 421) - September 25,2007
Disclosure and Insurance Product Regulation. ODR is headed by a n Assistant
Director, and includes a branch chief and, currently, four senior counsels.
ODR's reform initiative consists of two separate rulemaking projects.
One project encourages mutual funds to submit financial and risklreturn summary
information to the Commission using XBRL (extensible Business Reporting
Language). XBRL assigns data items standardized definitions through "tags" that
precede and follow the items. Software programs can read these tags, allowing
easier'access to and interactive analysis of the data.
The other project is intended to streamline the disclosure and delivery of mutual
fund information to investors. Among other options, ODR is considering requiring
use of a summary prospectus with information on investment objectives and
strategies, risks, fees and expenses, and historical returns.
ODR indicated that the existing "profile" (a document, separate from the prospectus,
which summarizes key prospectus information such a s investment objectives and
strategies, risks, fees and expenses, and historical returns) is a possible model for
the streamlined disclosure document. ODR plans to address the issues that limit
use of the current profile (e.g., potential liabilityl).
IM is coordinating its efforts with the Division of Market Regulation's (MR) proposed
"point of sale" rule. This rule would address broker dealers' disclosures to investors
in connection with sales of mutual fund securities.

                                     Audit Results
We found that IM has identified its goals for improving mutual fund disclosure and
has made progress toward achieving its goals. I n August 2005, the Commission
established a voluntary program to encourage mutual funds to submit their
financial information in the XBRL format. In June 2007, the program was expanded
to include riskheturn summary information. IM plans to submit recommendations
to the Commission soon for additional mutual fund disclosure reform (see the
Background).
We are recommending that IM develop outcome-based performance indicators for its
disclosure reform initiatives, a s discussed below.

Outcome Measures
The Government Performance and Results Act of 1993 (GPRA), Public Law 103-62,
107 Stat. 285, requires agencies to develop performance measures to assess progress
toward their goals. The measures should relate to outputs (items produced) and
outcomes (results).
ODR identified its desired outputs (rules to allow XBRL submissions of riskheturn
summary information and to streamline disclosure and delivery of mutual fund
information) and tracked their progress with internal milestones and weekly status
reports. In addition, the Commission's internal "Dashboard reports and FY 2007

'There was concern in the industry about the potential for claims that profiles were misleading because
profiles, as summary documents, omitted certain prospectus disclosures.

Investment Company Disclosure Initiatives (Audit No. 421) - September 25,2007
performance budget included information on the IM disclosure initiatives. IM has
not yet developed outcome-based performance indicators to gauge the results of its
rulemaking, because the rules are either relatively new or have not yet been adopted
by the Commission.
The Commission's GPRA performance budget includes performance measures that
may be helpful to IM in developing outcome indicators.2 One measure, "the percent
of forms and submissions filed electronically and in a structured format," might help
gauge the response to the new rules through the number of streamlined disclosure
filings and XBRL submissions of risklreturn information by mutual funds. Another
measure, "the annual number of on-line searches for EDGAR filings," might help
gauge investor demand for this information.
Outcome indicators can be difficult to develop, as recognized by the Office of
Management and Budget and the Government Accountability Office.3 However,
once developed they will help IM evaluate the results of its disclosure reform
initiatives.

        Recommendation A
       IM should develop outcome-based performance indicators for its disclosure
       reform initiatives.




 Agencies prepare performance budgets in lieu of the GPRA annual performance plans. Performance
budgets integrate agencies' annual performance plans into their budget requests.
 For example, see the OMB document, "Performance Measurement Challenges and Strategies" (June 18,
2003), and GAO reports GAO/HEHS/GGD-97-138, "Managing for Results - Analytic Challenges in
Measuring Performance," May 1997, and GAO-04-38, "Results Oriented Government - GPRA Has
Established a Solid Foundation for Achieving Greater Results," March 2004.

Investment Company Disclosure Initiatives (Audit No. 421) - September 25,2007
